              U.S. Department of the Interior
                  Office of Inspector General


                              Advisory Report




             DEVELOPING THE
       DEPARTMENT OF THE INTERIOR’S
         INFORMATION TECHNOLOGY
       CAPITAL INVESTMENT PROCESS:

         A FRAMEWORK FOR ACTION




AUGUST 2002                    NO. 2002-I-0038
                                                                       A-IN-MOA-0008-2002

                    United States Department of the Interior

                                    Office of Inspector General
                                          Washington, D.C. 20240



                                                                              August 26, 2002

Memorandum


To:          Secretary

From:        Earl E. Devaney
             Inspector General

Subject:     Advisory Report on Developing the Department of the Interior’s Information
             Technology Capital Investment Process: A Framework for Action
             (No. 2002-I-0038)

       I am pleased to provide you with our findings on the Department’s information
technology (IT) capital investment process. We evaluated the Department’s IT capital
investment process and identified promising practices recommended by the Department and
employed by other Federal agencies. I believe our results provide a sound framework for the
Department to begin developing a disciplined and controlled IT capital investment process.

       In our report, we identify actions that, if implemented, will improve the Department’s
IT capital investment process and increase the success of the Department in securing scarce
resources for IT investments. These actions include:

      ¾ Establishing a Departmental multi-tiered selection, review, and approval process for
        all IT significant investment projects.

      ¾ Establishing performance measures and selection criteria for IT projects.

      ¾ Considering a single IT budget for the Department.

      ¾ Establishing a training program for IT project management.

        Some of our proposed actions may seem extreme; however, we believe they represent
the Department’s best opportunity to improve its IT capital investment process. Although
this advisory report does not require a response, we would appreciate being kept apprised of
the actions the Department takes on our proposals.

    If you have any questions about our work or this report, please do not hesitate to call me
at (202) 208-5745.
DEVELOPING THE
DEPARTMENT OF THE INTERIOR’S
INFORMATION TECHNOLOGY CAPITAL INVESTMENT
PROCESS

A FRAMEWORK FOR ACTION
THE INFORMATION TECHNOLOGY (IT) INVESTMENT
CHALLENGE
The purpose of an IT capital investment process is to ensure that information and related
technology support the agency’s mission objectives and that the agency’s risks and costs
are managed effectively. Agencies must make strategic decisions about technology
investments to get the biggest “bang for the buck” and then deliver on their commitment.
A means to meet these challenges is a repeatable, disciplined, and controlled IT capital
investment process at the agency level. According to the General Accounting Office, the
process should include the phases shown in Figure 1.




                 Figure 1. Fundamental Phases of the IT Investment Approach

The Department, unfortunately, does not have a process to ensure that IT capital
investments or projects focus on Departmental mission objectives or Federal government
goals and initiatives. The Department’s IT investments are not focused on effectively
and efficiently accomplishing the Department’s goals from an enterprise perspective


                                             1
principally because of the Department’s decentralized approach to IT investments. For
fiscal years 2002 and 2003, the Department budgeted more than $1.3 billion for IT
investments, yet only $317 million representing 20 investment projects were subject to
Departmental review and approval through submission of capital asset plans.
Consequently, almost $1 billion, or 77 percent of the $1.3 billion budgeted for IT
investment projects, was not subject to Departmental level capital investment review and
approval. These projects were “under the radar” and were not prioritized from a
Department perspective of a singular enterprise. Because of the Department’s inadequate
process, at least one project that was not approved for funding by the Department was
forwarded to the Office of Management and Budget (OMB) and approved for funding by
OMB. Conversely, IT projects not approved for funding by OMB continued to progress
as though the project had been approved. In addressing a single Departmentwide
material weakness to change business processes throughout the Department, multiple
Bureau-level IT investment projects were developed rather than one Departmental IT
investment project. Clearly, a better way of doing business is needed.

An OMB analysis of the effectiveness of Federal executive agencies’ IT management
processes in the President’s fiscal year 2003 budget reported that the Department “puts
large sums of public funds at high risk for failure and does not comply with the
Paperwork Reduction Act or the Clinger-Cohen Act.”1 In addition, the analysis reported
that the Department had not been able to adequately identify major projects within its IT
portfolio or demonstrate the need for all of the identified major projects through adequate
business cases. Out of the 23 Federal agencies included in the fiscal year 2003
President’s budget supplemental document titled “Performance Information for Major IT
Investments,” the Department was one of two Federal agencies unable to provide the
necessary performance information.

To help the Department improve its IT capital investment process, we highlight in this
report the critical actions needed to begin developing a comprehensive, proactive,
reliable, and disciplined IT capital investment process. We believe our suggestions will
provide the Department with a framework to improve the IT capital investment process
and increase the success of the Department in obtaining scarce resources for IT
investments.

BUILDING ON THE DEPARTMENT’S EFFORTS
The Department’s existing IT investment process requires that IT projects with full
life-cycle costs2 of $35 million or more for nonfinancial systems and $0.5 million or
more for financial systems be processed through the Department’s Policy, Management


1
  The Paperwork Reduction Act of 1995 requires each agency to define its information needs and develop
strategies, systems, and capabilities to support programs and to improve productivity, efficiency, and
effectiveness. The Clinger-Cohen Act requires agencies to link IT investments to agency accomplishments
and establish a process to select, manage, and control IT investments.
2
  Full life-cycle costs include all direct and indirect costs for planning, procurement, operations and
maintenance (an operational analysis should be used to evaluate the condition and any negative trends on
cost projections for assets in use), and disposal. In other words, full life-cycle costs are all direct and
indirect costs from the identification of the need for a system through the disposal of the system.

                                                     2
and Budget’s (PMB)3 offices and the Assistant Secretary for PMB. Under the current
process, Bureaus and offices submit their IT project documentation (generally an OMB
Exhibit 300 form, “Capital Asset Plan”) to each of the PMB offices separately for review
and follow-up.

In July 2000 an outside consultant provided an assessment of the Department’s IT Capital
Planning to the Department’s Chief Information Officer. The assessment identified
numerous areas for improvement in the Department’s IT capital investment process. As a
result of the assessment, a process to select IT capital investment projects in the
Department was initiated by the Office of the Chief Information Officer but was never
formalized or fully implemented. In January 2002 the Office of the Chief Information
Officer, the Office of Acquisition and Property Management, and the Office of Budget
jointly began developing a process for selecting IT capital investments for the
Department. In March 2002 a proposal was provided to the Secretary for approval to
establish a formal process for selecting IT capital investments. In addition to the
Department’s process, Bureaus and offices are developing their own processes for
selecting, controlling, and evaluating IT investments. The Bureaus’ and offices’
processes range from informal to well-documented, such as the Bureau of Land
Management’s. We believe successful implementation of the IT capital investment
process at the Department and Bureau/office level requires an enhanced senior
management commitment.

The March 2002 proposed process includes an additional level of approval by the
Department’s Management Excellence Council4 and it includes plans to better coordinate
evaluation of the Bureaus’ and offices’ IT investment projects by the PMB offices. The
Department’s proposed process is presented in Figure 2.




3
  The offices within the Department’s Policy, Management and Budget Office involved in reviewing IT
projects are: Office of the Chief Information Officer, Office of Acquisition and Property Management,
Office of Budget, and under certain circumstances Office of Managing Risk and Public Safety.
4
  The Management Excellence Council includes the Secretary, Deputy Secretary, Assistant Secretaries, and
Bureau and Office Directors or Commissioners.

                                                   3
Figure 2. Department’s Proposed Process for Capital Planning and Investment Control
Source: Office of the Chief Information Officer




                                               4
We found several shortcomings in the Department’s proposal. Specifically, the
Department’s process:

   ¾ Does not support a paradigm shift to considering all IT projects as Departmental
     investments.

   ¾ Considers only Bureau IT investment projects that exceed high dollar and other
     thresholds for selection and excludes Departmental Offices’ IT investment projects.
     We believe that the thresholds for selection should be significantly reduced as criteria
     for the Departmental review process until such time as the Department and the
     Bureaus and offices have a stable and an “institutionalized” IT capital investment
     process.

   ¾ Is based on all Bureaus and offices having well-disciplined and controlled IT
     investment processes for IT projects under the Departmental thresholds. A means to
     encourage the Bureaus and offices to establish their disciplined and controlled IT
     investment processes would be through the use of a graduating or a sliding scale for
     thresholds. Without a disciplined and controlled IT capital investment process, a
     Bureau or office would be required to submit its business cases for each IT project for
     evaluation by the Departmental process. For IT projects requiring Departmental
     reviews, the thresholds could be increased as each Bureau or office approaches an
     “institutionalized” IT investment process.

   ¾ Only the Offices within PMB perform scoring for Departmental selection of IT
     investments, thus discouraging buy-in of the process by Bureau and office project and
     program managers and senior management.

   ¾ Is combined with the construction investment process.

NEEDED ACTIONS
First and foremost, a paradigm shift is needed to regard all IT projects as Departmental
investments rather than Bureau/office specific investments. To foster this change, we
suggest a multi-tier approach that requires the Department to plan for and select IT capital
investments from all IT projects for the current fiscal year and the next four budget fiscal
years. Only those projects selected and approved by the multiple select, review, and
approval entities would be included in the Department’s budgeting and procurement process.
Based on our review of best practices suggested by the General Accounting Office and
practiced by other Federal agencies, we suggest a Departmental IT capital investment process
as shown in Figure 3 and described in the paragraphs that follow.




                                             5
Figure 3. Office of Inspector General Suggested Process
Source: Office of Inspector General


                                                  6
FORMALLY          Best practices include a centralized multi-tiered process that at
ESTABLISH A       a minimum comprises three levels to assure an optimal IT
                  investment portfolio. Each tier is empowered to make
MULTI-TIERED
                  decisions and approvals through formal charters. The select,
SELECT, REVIEW,   review, and approval multi-tiered process is designed to both
AND APPROVAL      review and control all future IT projects and all ongoing IT
PROCESS           projects. This may result in reallocating or requesting new
                  funding, adding new projects, and postponing or even
                  canceling projects.

                  Each tier must ensure that:

                     ¾ IT investment-project business cases address
                       Departmental missions, goals, and business functions;
                       full life-cycle costs; the affordability of full life-cycle
                       costs relative to expected funding levels; associated
                       risks; and agency capacity to manage the asset.

                     ¾ Ongoing IT investment projects address Departmental
                       initiatives and objectives, and any necessary corrective
                       actions are taken (such as identifying additional
                       funding needs, suspending or canceling projects, or
                       expanding projects).

                     ¾ Implemented projects produce the benefits expected,
                       and adjustments are made where appropriate.

                     ¾ Processes are adjusted based on lessons learned
                       through evaluating IT projects.

                     ¾ The investment supports core mission functions that
                       must be performed by the Federal government and
                       demonstrates projected returns on investment that are
                       equal to or better than alternative uses of available
                       public resources.

                     ¾ The investment supports work processes that have
                       been simplified or otherwise redesigned to reduce
                       costs, improve effectiveness, and make maximum use
                       of commercial, off-the-shelf technology.

                     ¾ The investment needs to be undertaken by the
                       requesting agency because no alternative private sector
                       or governmental source can better support the
                       function.




                                     7
Establish a                This Group should be chaired by the Department’s Chief
Departmental Initial       Information Officer and be composed of:
Prioritization/Selection
Working Group                 ¾ The Office of the Chief Information Officer’s IT
                                Investment Portfolio Manager and staff,

                              ¾ Other PMB Offices such as the Office of Acquisition
                                and Property Management and the Office of Budget,
                                and

                              ¾ Bureaus’ and offices’ IT project and program
                                managers.

                           The purpose of this Group is to select, control, and evaluate
                           future and ongoing IT investment projects from the Bureaus
                           and offices including Departmental offices for subsequent
                           review and approval by the higher-level tiers. The selection
                           of IT investments would be based on the following actions:

                              ¾ Evaluate all IT investment projects against specific
                                scoring criteria;

                              ¾ Rank and prioritize the projects; and

                              ¾ Analyze each project for consolidation and/or
                                cross-cutting impact throughout the Department.

                           Those IT investment projects selected and approved would be
                           forwarded to the Department IT Senior Review Board for
                           review and approval.

Establish a                This Board should be chaired by the Assistant Secretary for
Department IT Senior       PMB and be composed of:
Review Board
                              ¾ PMB Members -- Chief Information Officer, Directors
                                of PMB Offices

                              ¾ Ad hoc members -- Bureau and office IT project and
                                program managers and Bureau and office heads for the
                                IT investment projects selected and approved by the
                                Prioritization/Selection Working Group.

                           The ad hoc members should have the same voting power as
                           the PMB members.




                                              8
                         The purpose of this Board is to review the IT investment
                         projects submitted by the Prioritization/Selection Working
                         Group and to develop the proposed IT Investment Portfolio by
                         performing the following:

                             ¾ Analyze each IT project for cross-cutting impact in
                               the Department;

                             ¾ Validate the business cases, assuring costs and
                               benefits and that the functionality of the projects are
                               adequate;

                             ¾ Ensure that the selected IT projects address the
                               Department’s strategic plans and mission needs and
                               the Secretary’s initiatives;

                             ¾ Ensure performance measures are defined; and

                             ¾ Validate and revise priorities as necessary to ensure
                               the IT projects are ranked based on the priorities of
                               the Department and, if necessary, add or reject IT
                               projects.

                         Other responsibilities include: (1) developing and updating
                         scoring criteria to be used by the Prioritization/Selection
                         Working Group for evaluating and ranking IT capital
                         investment projects and (2) developing the proposed IT
                         Investment Portfolio and IT investment strategy for approval
                         by the Executive Review Council.

Establish an Executive   This Council should be chaired by the Secretary of the Interior
Review Council           or the Deputy Secretary and be composed of:

                             ¾ All Assistant Secretaries,

                             ¾ All Bureau and Office directors and commissioners,
                               and

                             ¾ The Department’s Chief Information Officer.

                         The role of this Council is to review the proposed IT
                         investment projects submitted by the Senior Review Board
                         and develop the final IT Investment Portfolio for the
                         Department by performing the following:




                                           9
                          ¾ Evaluate the IT projects included in the proposed IT
                            Investment Portfolio to ensure these IT projects are
                            the most critical systems needed by the Department
                            and add or reject IT projects as necessary;

                          ¾ Analyze each project for cross-cutting impact in the
                            Federal government; and

                          ¾ Evaluate business cases to ensure each case is
                            well-developed.

                     After the final IT Investment Portfolio is approved, it is the
                     responsibility of the Office of Budget to develop the budget
                     for the selected/approved IT projects and the Office of
                     Acquisition and Property Management to develop the
                     acquisition plans. Only the IT projects approved by this
                     Council will be submitted to OMB for inclusion in the
                     President’s budget regardless of which Bureaus’ or offices’
                     budgets may be affected. It is the responsibility of the
                     Executive Review Council to identify a single point of contact
                     between the Department and OMB to address any OMB
                     questions on IT investment projects. We believe that the
                     point of contact should be within the Department’s Office of
                     the Chief Information Officer.

                     For each level of selecting, reviewing, and approving IT
ESTABLISH SPECIFIC   projects, establish and publish meeting schedules that are
MEETING DATES        relatively stable and occur periodically throughout the year,
AND HOLD COUNCIL     generally with at least three meetings per annual cycle. The
MEMBERS              goal of these scheduled meetings is to have the Executive
ACCOUNTABLE FOR      Review Council approve the Department’s IT investment
                     portfolio by July of the current fiscal year for the upcoming
ATTENDING
                     budget submissions. This will allow the Bureaus and offices
MEETINGS             to establish internal timelines to adequately prepare and plan
                     for IT projects early enough in the budget cycle and
                     Departmental approval process so that responses to questions
                     about the approved IT projects are not hastily prepared.

                     The meetings should ensure that good business cases are
                     developed to support the OMB form Exhibit 300s (Capital
                     Asset Plan). Thus if changes are needed in the Exhibit 300s
                     based on revised instructions from OMB, the information will
                     be readily available for input into the Exhibit.

                     Further, hold members accountable for attending the
                     scheduled meetings. If members are not present at meetings,
                     their IT projects will not be approved. While this may seem
                     extreme, it will demonstrate that Departmental senior

                                       10
                  management is committed to instituting a well-disciplined IT
                  capital investment process. This will help ensure that each IT
                  project and program manager, Bureau or office head, and
                  Assistant Secretary has a vested interest in making sure the
                  process works.

                  Best practices for instituting a well-disciplined IT capital
ESTABLISH         investment process require establishing performance measures
PERFORMANCE       and selection criteria for evaluating all IT projects. The
MEASURES AND      performance measures should address the planned
SELECTION         improvements the IT project will advance. This is
CRITERIA FOR IT   accomplished by breaking the IT project into specific
                  elements, estimating the costs, developing a schedule for each
PROJECTS          element, and charting and evaluating the project’s status based
                  on time and cost goals of the entire project. In addition,
                  monitoring performance of the project readily identifies risks
                  that may jeopardize the project, thus requiring a timely
                  determination as to whether or not the project should be
                  continued and whether or not additional resources are needed.

                  The selection criteria for IT projects should:

                      ¾ Address the Department’s mission and strategic goals;

                      ¾ Provide for improvements in service or program
                        delivery;

                      ¾ Correct a material weakness or deficiency;

                      ¾ Satisfy the requirements of a law or regulation; and

                      ¾ Advance management initiatives.

                  In addition, other factors such as cost, risk, return on
                  investment, life of the project, architectural alignment, and
                  security for the IT investments should be considered. These
                  criteria should be viewed as dynamic. They may change as
                  the IT capital investment process matures.

                  The selection criteria should include a scoring methodology to
                  ensure that the IT project and business case address all of the
                  information necessary for making decisions. This selection
                  and scoring criteria provides the foundation for selecting those
                  IT investments needed by the Department as a whole.




                                     11
                     To persuade OMB and the Congress to provide funds for IT
Explore the          capital investments, the Department must identify how much
Establishment of a   money it needs and the wisest ways to spend it. A single IT
Single IT Budget     investment budget funded through a single appropriation for
                     the Department would significantly advance these objectives.

                     In the immediate term, however, the Department must seize
                     greater control over IT investment funds to ensure appropriate
                     and efficient expenditures of IT monies. In that regard, the
                     Department should:

                        ¾ Establish single line item budgets for IT investments
                          in each Bureau and authorize the Department’s
                          Executive Review Council to approve all IT
                          investments. These budgets should be linked to
                          Departmental missions and goals and fully support
                          Activity Based Costing.

                        ¾ Grant oversight authority to the Chief Information
                          Officer for all IT investment budgets. The Chief
                          Information Officer should, in concert with the Deputy
                          Assistant Secretary for Budget and Finance, review
                          and certify the budget requests and transactions of the
                          IT investment line items based on IT investment
                          projects approved by the Executive Review Council.

                     In the long term, the Department should explore the viability
                     of establishing a single Departmental appropriation for IT
                     investments to include linking IT investment budget requests
                     to performance measures and strategic plans.

                     It is important that members of each tier understand the
Establish a          policies, roles, rules, and activities and exhibit core
Training Program     competencies in using the IT investment approach. This is
for IT Project       accomplished through training and education in IT project
Management           management or having experience in managing IT and
                     business process re-engineering projects. We found that
                     agencies with best practices have established an IT project
                     management training program. By establishing a training
                     program for IT project management, the Department would
                     have more assurance that the best projects are selected for
                     investment and that the projects are effectively managed. The
                     Department should take full advantage of OMB’s planned
                     project management training offerings.




                                       12
                                                                                APPENDIX

EVALUATION SCOPE AND METHODOLOGY
We reviewed the Department and its Bureaus’ and offices’ IT capital investment processes
for selecting, reviewing and approving IT capital investments for budget fiscal years 2002
and 2003. We interviewed the personnel responsible for IT investment planning and/or
reviewed policies and procedures from the following Bureaus and offices:

   Departmental Offices:

       Office of the Chief Information Officer
       Office of Acquisition and Property Management
       Office of Budget
       Office of Managing Risk and Public Safety

   Bureaus and Offices:

       Indian Affairs
       Bureau of Land Management
       Bureau of Reclamation
       Minerals Management Service
       National Park Service
       Office of Surface Mining Reclamation and Enforcement
       U.S. Fish and Wildlife Service
       U.S. Geological Survey

We evaluated Departmental processes and compared these to best practices suggested by the
General Accounting Office and practiced by other Federal agencies.

We performed this evaluation in accordance with the “Quality Standards for Inspections,”
issued by the President’s Council on Integrity and Efficiency, and, accordingly, included
such tests and inspection procedures considered necessary to accomplish the objective.




                                             13
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6023
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
